 ....
   " \                                 --


         CRACK            BABIES:




    SELECTED MODEL PRACTICBS





         'YIClS




OFFICE OF INSPECTOR GENER1
OFFICE OF EVALUATION AND INSPECTIONS
                                        JUNE 1990
,"                        ..            -.
                                 OFFICE OF INSPECTOR GENERAL

         Il1issionoftheOffc ofIr1 pe9tor(3eJ1era(OIG) is to promoteeffci ncy. effectiveness,
     and integrty of pmgr~inth Vnite, States Depan ntof lIeaIthand Humarrvces
     (HS).    lt does thS by '     yeloping      tlb9s
                                                          () detec Ard prevent!rud. waste. and abus
     Crea      YStatutein'       7 6.    lJSptor         neralkeeps '              tary andthe' Congrss
                                                                    .JJththe
     fll11Yandcllntly infof1ed  l?utprogror management problems and reoIIends
           tiveaction. 'IeOIqJt1iormjtsrnssion by COJ1dllCtig aU l$, investigations and
     irspedions with approxi elyl.300 sta strategicaly loca 'around the countr.


                        OFFICE OF EVALUATION AND INSPECTIONS
     Thine.ponis prouced by the Qfce ofEvaluarlon and Inspetions (OEI), one of               th major
     offce withinthe()IG,'The  Other tWo mthePfceof Audit Servces (OAS) and the Office
     oflnyestigations (QI). TbeOElconducts  ins tions whichartyicallysbon-term stUdies
     designed to detennne progr . effectiven ss. effciency and wlnerabiltyto frud and abuse.

     1Qrepon is descrbes selected IDodel practice s which maybe effective in assisting
     clg posebabies dtheir              far
                                     ies These modls were encountere durg an insption
                                                              Thefmdigs from the Crack
         tpghoW crack abies ect thech d welf sys
 " Bab      $ijspetiol1arcor1           edi. a separte repon, OEI-03- 89-01540.


     Thestudyy.as prepar Wlderthe dition of Joy Quil, Regiona Insptor Genera. Ofce
     of Ev uationand Inspetions, RegioIlID. Parcipatig in thsproject wer thefoUowig
     peple:
     PhiiadelphlaReglon                                   Washington. D.


     JosephG. White. Project Leader                       Alan Levine
     Lois C Lehmarn
     Lida M. Ragone
     Isbelle Buonocore
     Cyth R. Hasford

     San Francisco

     Cythia A. Lemesh .
     Mahal Schff
     TriciBanniter
     For mor    inoration on        ths stdy.   conta Joseph G. Whte at (215) 596-17.
                                               , .





          CRACK BABIES:

     SELECTED MODEL PRACTICES





                  Richard P. Kusrow
                  INSPECTOR GENERAL




OEI..3-89-01542                       JUNE 1990

                                  INTRODUCTION



PURPOSE

This repon descrbes selected model pratices   which may be   effective in assisting
drg~xpose babies and their famies.
These modls were encountere durng an inspetion examng how             crk
                                                                   babies afect               the
child welfar system. The findigs frm the Crk Babies inspetion ar contaed in
separte repon.



BACKGROUND

Durg the Crk Babies inspection. we found that public and private agencies ar          strgglig
to cope with the incrased volume of drg-expose inants and the multiple servce need            of
their famlies. Servces ar provide to fames considere to be at ' high- risk. " Some
indicators of high- risk famy cirumtaces ar poveny. substace abuse. famly disruption.
and abuse or neglect.

Agencies identied   may servce prblems. Some agencies have prblems providig early
intervention servces. comprehensive cas maagement, and casworker
respndents ar also concerned about the spe
                                                                         trg.
                                                                           Study
                                             educational nee of these chidrn and the
lack of interagency coordation.

In ths repon, we descbe pratices being use by public and     prvate agencies. and State and
local governnts to   adss  some of these problems.

The Crak Babies insption found that the problems cause by crk ar inseparble frm the
larger issue of prenata exposur to other drgs includig alohol. Accordgly.          progr
                                                                                   and
procedurs   descbe    in ths repo  ar   lite
                                      not        to those dealg with crk or cocaie
exposur.

METHODOLOGY

We collecte inormtion in 12 metrpolita ar durg           qua
                                                        the lat           of 1989.
Respondents include chid welfar   adistrto and       cawor, hospita soal servces
sta. prvate agency reprsentatives. foste parnts, Sta and     local offals.   and   national
expert. These respndents   idntied prgr and prurs which they considere
effective in assistig drg~xpose babies and their fames. Whe al prgr cite in                   ths
repo were contate and most were visite    we did not atmpt to assess their effectiveness.
CATEGORIES OF MODEL PRACTICES

This repon is a selection of model practices which may be effective in assisting drg~xposed
babies and their famlies.

Practices are presented in eight categories:

            COMMUNIT OUTREACH AND EARLY INTERVENTION

      II.   COMPREHENSIVE SERVICES IN ONE LOCATION

      II.   EDUCATION FOR DRUG-EXPOSED CHILDREN

      IV.   CASE MANAGEMENT

            PROFESSIONAL TRAINING

      VI.   MANAGEMENT PRACTICES

      VII. INTERAGENCY COORDINATION
      VIII. PRIVATE INmATIES


More inormtion on    these pratices can be obtaed   frm contatS liste in the appendi.
                                                                                                I'
I. COMMUNITY OUTREACt: AND EARLY INTERVENTION
Communty outrach involves going into neighborhoo to find drg abusing women and
their childrn. The next step is to encourge them to use avaiable medical and socal services,
Aggressive outrach getS women and childrn to servces they would not othexwise receive.
Early intervention means identifyig problems in their early stages and providig appropriate
services in ordr to prevent serious problems.

The followig four progr provide outrach and/or eary intervention to fames in their
communities.

The  MaternitY Outeach Mobile (MOM) Proiect is adistere by the Deparent of Human
Servces (DHS). Commssion on Public Health, Offce of      Marn and Chid Health. in the
Disaict of Columbia. The MOM Project conducts early identication and trattent of
high- risk populations thugh scning. referr. and follow-up. The project i!ta response to
the high inant mortty rates in the Distrt.

The MOM tagets pregnant women. parnting women, and inants in high- risk aras. The van
canvasses neighborhoo, par. and shopping aras lookig for mothers and inants. It also
taes referr fr DHS and a varety of other soures.
Outrach workers in the van tr to enrll high-risk women and inantS intO the MOM project.
The workers then refer women for car to the nearst health center or health car provider.
The MOM van sta also ta women to appoinnnnts and follow-up to be sur women ar
using the servces.

St. Luks/Roosevelt HosDital Center New Yor City. ha tWo        prgr    with its Community
Servces for Chidrn and Fames: the Prvention Unit and        the FU't Step Unit. Since the
         afate
offere by the hospita
unitS ar          with the hospita, their clints have acss to the wide rage of servces


The New Yor City      ChWelfar Admtrtion (CWA) contrts with              bOth unts and
provides a lae porton of their fudig. The Firt Step Unit also reeives     2S   percent of its
budget frm prvate sours and foundations.

The Prvention Unit sees muti-prblem fames, most of whom ar referr by CWA. At
least 6 of thir 42 fams must be "bor baby" prevention referrs. The unt is stafed by
 soial worer, psychologits,   and vo   unter home   visito.


 The Prvention Unit seks to prvent     foste car placment,    deas the incidence of child
 abuse and neglect, imve the parnts ' abilty to deal with psycho-soc crses. and promote
 the persnal development of parnts and chidrn. The      staassumes cas maagement and
 clical respnsibilty for th famy with personalze coordation strtegies. , The
 coo
 intetion
             seces includ counselig, crsis intervention, home visits, and parnt hild
            therpy.
The Firt Step Unit serves 24 pregnant teenagers and teenage mothers with infants.     Staed by

social worker and volunteer home visitors. the unit seeks to improve parntig skils. reduce
psycho-soial strss, foster personal development. increas self-estem. and reuce potential
foster car placement. The home visitors help incras the mother s knowledge of the
physical and emotional needs of her baby. The sta suppons the mother in "dealing with
conflct and strsS, and motivate her to consider the choices for her futu.


The   Harbor/UCLA Medical Center in Torrce. Caorna has a Substance AbusinR Mothers
(SAM) Clinic The SAM Clinic provides suppon and car to pregnant women adcted to
illicit drgs. Eighty percent of the infants born to women attndig the clinic have ben drg­
fr    at bin. The infants have a reuced incidence of prematuty and low- bin weight,
                                                          deasnee for foster car as
shoner neonata stays. fewer perinata deaths. and
compar to other babies born to adcte women not in ths            prgr
Sta include a clic coordnator, periatologist, developmenta psychologit, psychitrt,
dietician, and nur educator. as well as petrcians. OB-GYN house sta, and certed nure
midwives. The servces prvide ar            prenata car.   peatrc car, soal servc.   case
maagement, chemical                           education. suppo grups. indiviual
                         dependency tratmnt, parnt
and grup counselig. community outrach. and famy              plag.
                                                          The fundig for these
servces comes from the county Drg Abuse          Prgr
                                              and State funds set aside for hospita in
tagete counties.
There is also a clinic for childrn of substace-abusing mother th dos developmenta
testig and assessment. Babies ar followed at 4-month inteal durg their fit year and
6-month interval thereafte.

The   Center for   Famly Likin Broklyn, New        Yor is a multi- sece agency servg the
Sunset Park communty of Broklyn, a por neighbooo of some 98.00 people.

        pri
While its       focus is to   susta chidrn in    eir own homes thugh a varety of

                                                           sa prgr
supportve servces. it reently develope a pilot foster famy           in which foster
fames ar matched with natu fams with the                   neighbooo when placement is
necessar. Suppo by a contrt with the New Yor Chid Welfar A                 strtion. the

progr       pur   is to reuce the  trum  of separon
to keep siblip together, and to offer mor intensive
                                                       for
                                                           ses ai
                                                           chidrn who  have
                                                                  towar famy
                                                                            to be removed

reuncation.        Af chin ar   retued  to their parnts, th  famy is encourged to rema
connecte with the Cente for ongoing suppo and risk reucton. The Cente has found
neighborhoo foste famy homes for 64 chidrn and ha retued 33 to their parnts.

 The Cente' s famy servces include individua grup, and famy counlig; psychological
 and psychiatrc assessments; an inant/oder/parnt progr foste grdparnts;
 employmnt servces and job plaement; emergency foo an advocac cliic; and extensive
 school- bas acvities. The lattr include school-age chid car seces at tWo schools, as
 well as tWo ten cente and    sum day camp prgr.
The Center for Famy Life has develope servces that ditly meet the nee of its
neighborhoo clients. It is involved in developing the community as well as with individual
and famly clients. This commtment is reflecte in the Center s policy of being available to
the neighborhoo 7 days and evenings a week.

II. COMPREHENSIVE SERVICES IN ONE LOCATION

Central locations offerig comprehensive servces ar a preferr approach for reaching and
servng drg-addcted women and their famies. Servce       nee   include medcal car,
counseling, and social servces. The facilties provide servces  dite  at the
multi- diensional nee of drg- afecte famlies. The avaibilty of a varety of services at
one location maes it easy and convenient for fames to accept seces.

Descptions of     th  facilties which provide comprehensive   servces to drg- adcte   women
and their childrn follow.


progr ar
                                     Fames.
Marrn LUlher Kinll ir. Hospital in Los Angeles, Caornia is a county facilty where four
            avaiable for drg-expose babies and their fames. These
an umbrell progr caled Shield for

The flIt
                                                                         progr ar

           progr Prject Support provides prenata car and outpatient drg tratment
                                                                                    pan of



clients referr    priy by the hospita The Caorn Deparnt of Chdrn s Servces
(DeS) can madate individua parcipation in the    prgr by me of a coun orr. The
county Drg Abuse     Prgr provides fu4ig.
The seond progr High- Risk Inant Follow-up, is a clic th prvides medcal car for
inants and ensurs they reeive necessar serces. It is for chidrn from 0 to 5 year of age
who have developmenta    nee or ar at high- risk. Chdrn ar referr frm other       Shield for
Fames       prgr as well as by DeS,
is fude by the county Deparnt
                                    hospitas, and other
                                of Health Servces.
                                                          foste car agencies.   The progr


The th progr is Assitace and Relief to       Ki (AR), a chid abuse p      ject for high-rik
women funde by the Sta. Upon reommendation frm OC, the coUt              ca ordr mothers
to attnd the     prgr
                    The AR progr reives its fundig frm a State-           adistere
Fedra      grt
             for mol progr dealg with chid abuse.

The foun prgr Edn Inant,         aid
                                   and Famy Development Cente, consists of early
developmenta assistace for drg-expose newbos and their         fams
                                                             with spial needs.
The progr fudig comes frm the Unite Way, DC, and the county Drg Abuse
Prgr Edn offer center and home-bas prgr                focusg on parnta ski
development. Mother parcipate in both for a tota of 1 ye.

         bas
The center-        prgr
                      includes parntig clases, counlig, psychological evaluations,
and Cocaie Anonymus metigs. Edn s home-bas             prgr
                                                          includs fuer counseling,
implementaon of new parntig      sk,
                                  and application of new maagement skills. It also
includes famy assessment with an indiviualze tratnt pla develope with famy input.
Family Health Center in Mi      , Florida is a tratment community for female substace
abusers which allows mothers to keep their childrn with them while attending the program
The Center offers comprehensive prima car and adction services which include
outpatient services, day tratment, and residential components. Curntly there are 15
residential beds, with 25 more being planned.

The Center receives fundig from the U. S. Depanent of Health and Human Services and the
Florida Depannt of Health and Rehabiltative Servces. The residential progr lasts 6 to
9 months, is self- paced and employs a token system. The token system allows patients to ear
points nee    to move though tratment phass.

The residential progr s goal is cognitive grwt. In adtion to drg tratment,         enrollees
receive vocational trning, tutoring for high school equivalency diploma, parnting and
nutrtion classes, psychological counseling, AIDS prevention trning, trsitional housing,
child car, and health car. Women attend physical fimess and an clases, along with
communty soial events and Narotics and Alcoholics Anonymus metings.

To gruate, a woma must be employed for 90 days, have $500 saved possess
facilty-approved housing, and have or be workg towar her high school diploma. After
graduation, parcipation is reuir in an outpatient program which includes radom drg
testing. Center sta conduct follow-up if the women do not attnd.

The   Women s   Anne in Tacoma Washigton provides trsitional       housing for   women (and
their childrn) recovering frm drg and alcohol abuse. To live in the Anex, women must
have attnde or be attnding drg tratmnt and be in school or workg. The Annex
consists of seven houses with a resident maager and cas maager on-site at al times. The
sta assist women in seurg servces and resoures they nee to stay drg-         fr.
The houses ar    designed to offer a   suppove home   envinmnt for women and their
childrn. Servces includ chid car, trspon,                      workshops. Women also
                                                       reation, and
have access to employmnt and education reso                inormtion. The women may
                                                      and referr
stay as long as necessar to mata drg-  fr   sobriety and wor towar ,independence.
More inormtion on Women s Anex is provide in Section vm, Prvate Intiatives.

II. EDUCATION FOR DRUG-EXPOSED CHILDREN
Serious conce exist about the futu impact of drg-e~pose babies on school systems.
Drg~xpose babies ar considere liely to have developmenta, behaviora, psycho-soial
and learg problems which school systems and prschool         prgr wi    face. With early
                                                                                      progr
intervention, may professionals believe these chidrn can  be  masttam       Both
descbe below prvide a        strctu educational   prgr   for preschool chidrn.

The Los Anieles UniJW School Distrct has a pilot reseh         prgr   for drg-expose
chidrn whih uses speal    local and State education funds. Since its inception in 1987,
childrn between the ages of 3 and 6 have parcipate
The progr tagetS marginal childrn, I.e., those who may ultimately be integrted into
regular classroms. Childrn ar referr to the progr by the Deparnt of Childrn
Services, foster parntS, and relatives. Upon referral, the sta perform an initial child
assessment to detennne if the program is appropriate. The program s initial goals ar to
develop strategies for teaching regular teachers about the unique nee of drg~xposed
childrn, and determne if there ar similar characteristics among drg-expose childrn.
stated in the program manual, "There is no tyical profie of a drg~xposed child, and as
such, each child must be educate as an individual with parcula strngths and
vulnerabilties. ..

Three other program   ai are:
      to identi   preschool childrn   at risk for behaviora and developmenta learing
      problems due to prenata drg and/or alcohol e~posUJ;

      to develop effective strtegies and provide strctu learg experiences to promote
      cogrtive, communicative, psycho-soial and     moto development of chidrn prenatay
      exposed and


      to faciltate the successful trsition of prenatay expose chidrn to a regular
      education settg or to the least restrctive speial education  prgr
The progr provides morng classes that last 3 hour and 20 miutes for preschool-age
childrn and full-day classes for chidrn     year and olde. The sta include a soial worker,
psychologist, doctor, and th    teachers. Each teacher handles 6 to 8chin,    providig
consistency and reliabilty thugh day routies. Th approh           strngtens a child'
self-contrl and builds a sense of matery over the envinmnt.


The chid' shome lie is also considere an essenti pan of the curulum; home visits and
parnt education classes ar conducte When        nee the famy is offere menta health
servces. Parnta confdence and competency ar incras thugh intervention strtegies
which strngten the positive interation betWeen chid and famy.

Head Sta is a chi development progr for preschool chidrn frm low,. income famies.
It is funde by the U. S. Deparnt of Health and Hum Servs, Ofce of Hum
Development Seces. Prjects ar         adtere   at the loc leveL

In reent yea, Head     Sta prgr arund the countr
                           fames, may with drg
                                                         re         seg incrasing
                                                                 thy ar
                                                          prblems. Hea     Sta famies may
numbers of dysfuctional
have spal nee and experience diculty coping with
Head Sta      progr
                                                    abuse
                                                            as          of day
                                                                          livig. A number of
                        have crate unque local parerships with menta heath centers and
chid welfar agencies to   adss             these problems. A surey of prblems and mol progrs
is contaed in the November 1989 OIG repon,                Dysftina Ftllus in tM Head Stan
Program: Meeting the Chalenge, (OAI-09- 89-0100).
IV. CASE MANAGEMENT

Quality cas maagement can htlp ensur that drg- adcte mothers and their childrn
receive essential servces. Cas management means guidig fames to servces including
health car, counseling, physical therapy, drg rehabiltation, parnting classes, and vocational
trning.
Two   progr   which provide both case management and      dit servces to drg- adcted
mothers and their babies ar descrbe below.

The                                                 Caorn provides cas maagement
      Center for the Vulnerable Child (CVC) in Oakand,
to high- risk chidrn. Two evc goal ar to " met the heath car, developmenta and socia
nee of vulnerable chidrn" and to "coordate servces to provide comprehensive car.
The evc servces ar funde primay thugh money frm private foundations.

The Chemical Addction Recovery Effons (CARE)         Cl
                                                     is one evc         progr
                                                                         The clic
serves chemicaly dependent women and their drg-expose inants. A peatrcian, nur,
and therapist/cas maager with specia chemical dependency expertse sta the clic.

The CAR      Clic provides both medical and counselig servces. Medcal servces include
            developmenta assessment, and parnt trg. Sta spalsts visit homes to
pediatrc car,
teach fames about the reovery proess and their inant s development Mothers alo gai
suppon thugh individual counselig, grup metigs, and famy therpy.

The cas maager s role adjusts to clint nee. The cas maager may see "as problem
solver, role modl, advocate, broker, assessor, planer, sece monitor, reord keeper,
therapist, collabotor, and detective. " Furer, the cas maager consults with speiasts and
communty providers to offer mother and chid a varty of seces.

The   Perinata OUteach Project in Washigtn, D. C. prvis in-home skied nuring, socia
servces, and prfessional therutic seces to prna an           potpar
                                                                  patients and at- risk
newbos. The Prject seed approxitely 800 clints in 1989. An estite 80 percent of
the babies served wer frm drg- afecte fame s.- The        prje
                                                          is maaged by Chldrn
Home Health Ca Servces with fudig frm the D. C. Commssion of Public Health, Offce
of Mate an Chid Heth. Clnts ar referr by local hospita and the Deparent of
Hum Ser.

Outrach sta     rrk mother  and child to ensur they ar gettg aduate mecal car. The
Prject also helps   prvent duplication , and frgmntation of seces to ths high-risk
population. Sta     nurs conduct an average of    th  to five in-home viits pe month. Durg
these viits, they   teh wOlDn   about prenata and   potpar car and chid reg.
The sta   counsel individual about educational,   fianci so      sece, and   employmnt
nee, and assist fames
identi progr        and ma
                           in acssing mecal and foo
                             appropr refeIr bas
                                                         supplement
                                                         on individua
                                                                      prgr.  They also
                                                                      famy nee.




                                                                                                T".--
V. PROFESSIONAL TRAINING
                                                                                                ;f .
Prfessionals who work with drg- adcted women and            drg-exposed childrn have specific
trning nee.   The trning components cited below include          recognizing substace abuse and
identiying the medical    and social servces nee   of drg-expose babies and their famlies.

The National Association for Perinaral Addiction Research and Education (NAPARE) has
develope and disseminated trning curcula for soial servce and health car professionals.
They have offere to shar this curcula with child welfar agencies and physicians
associations. Recognizig that professionals often tae inaduate substace-abuse histories,
NAPARE emphasizs the nee to tae comprehensive substace-abuse and lifestyle histories.
The curcula      includes guidelines for reognzing, assessing, and tratig
                                                                        substace-abuse
cases. It is designed for physicians, social servce and drg and alohol casworkers, and
famly cour judges and attorneys.

The University of Caorn at Los Angeles develope         Proiect TEAS (TraininR, Eduation
and ManaRemenr Skills) to   trn  workers to deal with the special nee of drg~xpose babies
placed with foster parnts and relative cargivers. The TES "curculum supprt a
servce delivery mol which is interdsciplinar in pratice, integency in focus, and holitic
in its approach towards infant, famy, and cargiver nee.

Prject TES was funde by the National Cente on Chd Abuse and Neglcct frm                 Apri
1986 thugh May 1988. The project has since ben c~pande to include biological parnts
and is suppone by the Los Angeles County Boar of Supervsors and the Deparent of
Childrn s Servces. Prject TEAM also has a contrt with thc county to           tr
                                                                         physicians
about issues concerng drg~xpose babies.

                      Deparnt of Education s Hadicappe Chdrn s Ealy Education
Prgr is fudig an expansion of the prgr to prvi trgfames
Curntly, thc U. S.
                                                   and tehncal assistace
                                                         in communities
 to public and private agencies workg with chemicaly dependent
 thughout     Caorn      The progr crates skied interdscpli team              of chid protective
                                                               tu, help cargivers crate
 scrvces workers and public health nurs. These
 healthy,   nurg envinmnts for their drg-cxpo
                                                    team,

                                                            inants.
 Traning for th chid proteve worrs and public health nurs lasts 6 months. The             fit
 phasc of inuuon concerns the effects of substacc-abuse on the developing fetus, inant,
 child, parntS an cnti famy. Th phas also involves establishig gudelies for
 assessmen intecntion, and interagency collraon.

 The seond phas is a clical         consitig of cas maagcment, individual
                                 component
 consultaons, and monthy sma- grup consultaons. Tea conduct home viits with
 inants and cargiver. Thc trees alo atnd grup metigs to diuss issues relatig               to

  thesc babies   an their foste parnts.




                                                                                                   W. ? .   :7'"
VI. MANAGEMENT PRACTICES

Severa States and local governments have established maagement practices to improve
trcking and supervsion of child welfar cases involving drg    exposur. These    pratices
include automated centr registres, special drg baby units, and fast trking of the legal
process. Although severa States and cities have these pratices, only" one example of each is .
cited.

Many States have centr registres where child abuse and neglect cases are reponed In
Florida these cases ar referr to the Deparnt of Health and Rehabiltative Servces
(HS). The 
  Florida Abuse ReRisrr was established by Deparnta ditive in October
1988 to provide a single statewide 800 toll- fr number for reportng all suspeted child abuse
and neglect cass. The HRS regulations reuir centrize reportg of all newborns " who
ar born to mothers who ar   adcte or have abuse drgs durg the chidbearng period"
The Deparent also reuirs that drg- afecte        famlies and substace-abusing pregnant
women " be given the highest prority in servce   prvision.


      DelJarenl of Childen s   Services (DCS) in Los Angeles ha established tWo   high- risk
The

drg bab untS.     The units perform th    functions: emergency    responsc,     custody
investigations, and famy matenance. They opera on a vercal cas mol, where each
casworker perform al     th    fuctions in ord to ensur consistency in case maagement.

When an inant is fIrt referr DCS intae evaluatOrs usc a spal high-risk intae form.
When informtion obtaed mets selecte crteri the baby is referr to the high-risk unit
for asscssment.

In the unt, soial worker use a speial risk asscssment gude for inants prenatay expose to
drgs. The gude, along with persnal intervews, aids in determg the inant s placement.
If the inant canot be saely released to the mother, a custoy petition is fied in coon If the
chid is alowed to go home with the mother, a famy matenance plan is develope

A legal pross known as 'fast tracking has ben imlemente in Dad County, Florida
The proess helps expete the less complex dependency cass thugh the coon system by
prscbing
deisions. FUt
              spc  ti
                trkig
                       slots for chi welfar cass. This results in quicker placement
                      is a   cooate    effon among Florida' Deparnt of Health and
Rehabiltave Seces, the Juvenie Justice System. and the Sta Attey Genera' s Ofce.
VII. INTERAGENCY COORDINATION

Interagency coordiation is necessar to ensure that services to famlies ar available,
accessible, and not duplicated. Lack of coordnation among service providers is a major
problem cas managers face in offering multiple servces to drg- affected famlies. The
following two program ar using interagency coordiation to    adss    the issues and
consequences of  drg  use in their communities.

The  Illnois Model is an innovative interagency coordiate effon to adss the needs of
cocaine and other drg-exposed infants. The agencies pancipating in and funding the project
are the Illnois Depanent of Childrn and Famy Servces, the ilinois Deparnt of
Alcoholism and Substace Abuse, and the National Association for Periata Addction
Researh and Education (NAPARE). The         th
                                            agencies use an education, prevention,
referr, and   coordiated intervention   strtegy.


The Ilinois Modl has " reuced systems barers to integrted servces and ma available a
full complement of servces to high- risk famlies. " The Modl has provide integrted
medical substace-abuse, and soial servces to over 40     mothers and inants since 1986.


One of the modl's components is a conf1dntial, tOll- fr " Coaie Baby" Helpline. The
helpline provides inonntion and referr to individual in five midwestern states. The
toll- fr number is staed by a peatrcian and peatrc nur pratitioner who refer
women to clics and physicians for medcal car and drg traannt.

The agencies have co-sponsore    th national trg     conferences and develope a national
newslettr to provide an educational forum about cocaie use and pregnancy. The N APARE
has also develope curcula to trn medical. soal servce, and substace..abuse
professionals to reogn, refer, and trat cocaie- afecte inants.

The Governor s Commsion for a Drull Free Indna was establihed by cxecutivc ordr in
May 1989 to exame Indiana s overa drg prblcm with speia emphasis on local issues
such as crk abuse. Commssion members have divers backgrunds in youth servces, law
enforcement, business, education, chid welfar and pro tion servces, medcinc, drg and
alcohol abus and tratmnt, and othcr soal servces.

The commsion servcs as an umbrella organzation to suppon local coordation       and
initiativcs in 1b war agait drgs. It trks local fuds.    inorm the Governor of local nee,
and advis locties of Sta legislanvc intiatvcs.

Fundig is drwn frm a varcty of Fedra          prgr
                                             and State  includig thc Alcohol, Drg
 Abuse, and Menta Health block grt, Cral Justice block grt, Natona Highway Safety
 funds, and Indian s Drg Fre Communties grt prgr




                                                                                             7"-
                                                                                             .. "
                                                                                           - -   ..

VII. PRIVATE INITIATIVES

Severa   progr visited durg the Crack Babies inspection were initiated with private funds.
These progrs were private sector responses to curnt soial problems. Two of the the
progrs described now receive some public funding.
The   Women s Annex (previously descrbe) was funde by a local attrney who   acquir
seven houses and renovated them into housing for women  reoverig from drg adction.
Severa of the houses were formrly  crk   houses. The servces ar funde thugh private
conttbutions and the Washingtn State Division of Alcohol and Substace Abuse.

The  Children s Home SoCietY of Miam, Florida offers a varety of servces for infants and
childrn to age 18. They provide pregnancy counselig, adption servces, residential foster
car, foster homes for childrn with AIS, emergency shelters for inantS and childrn, soial
servces for developmentaly delayed childrn, and grup homes for tens. Their servces
now under contrt with the Florida Deparent of Health and Rehabiltative Servces.

In 1986, Burger King, with help frm other local businesses, buit the facty contang their
adnistrtive offces and an emergency shelter. Funds to constrct the inant center were
donated by a local foundation. A signcant porton of the Socty s operational costS ar pai
for with Unite Way funds and private conttbutions.

The     fornia Medical Center in Los Angeles rus a progr caled  Rebirth for substace­
abusing mothers and their inantS. The progr provides education on maternal drg abuse to
mothers in hospitas. Rebin also  trs   cargiver on the spial nee of the
drg- withdrwig inant A nur conductS follow-up home visitS to check the inant and
answer any questions. The  prgr     which reives no publi money, is fude by the
Caorna Communty Foundation and private donaons.




                                                                                                    . __0"
                                    APPENDIX


CONTACTS:

I. COMMUNITY OUTREACH AND EARLY INTERVENTION
    Maternity Outreach Mobile Project
    Paaicia Thompkis
    Office of Maternal and Child Health
    Commssion of Public Health
    Deparent of Human Servces
    166 L Stret, NW
    Washington, DC 20036
    (202) 673-4551

    St. LukeslRoosevelt Hospita Center
    Joane Johnson-    Hershm
    West 114th Strt and   Amterda Avenue
    New York City, NY 10025
    (212) 523- 2122

    HaborlUa. Medcal Center -
    Substace Abusing Mothers Clic
    M. Lynn Yoneku  MD.
    1000 West Caon Strt
    Torrce, CA 90509

    (213) 533- 3565

    Center for Famy Ute
    Siste Ma Paul DSW
    345 43rd   Strt
    Broklyn, NY 11232
    (718) 788- 3500


II. COMPREHENSIVE SERVICES IN ONE LOCATION

    Ma Luther Kig Jr. Hospita
    Xylia Bean,   MD.
    12021 South WWngtn Avenue
    Los Angeles, CA 9059
    (213) 603-457




                                          A-    ' VI
   Famly Health Center
   Toni Shamplai
   5361 NW 22nd Avenue
    Miam, FL 33142

    (305) 637- 6400

    Women s Annex
    Jacquelyn Nonnan
    2024 South J Stret

    Tacoma WA 98405
    (206) 383-0104

II. EDUCATION OF DRUG- EXPOSED              CHILDREN

    Los Angeles Unified School Distrct

    Dr. Phillip Callison
    Assistat Superintendent

    Division of Special Education
    450 Nonh Grad
    Los Angeles, CA 9051
    (213) 625- 6701

    Head Sta
    Oennie Murhy, Jr.
    Head Sta Burau Associate Commsioner
     O. Box 1182
    330 C Strt, 

    Washigton, DC 20013
    (202) 245-0572

IV. CASE MANAGEMENT

    Center for the Vulerble        Chd
    Neil Haon,              M..H
                         MD.,

                   s Hospita Mecal Center
    747 52nd Strt
    Oakan CA               946
    (415) 428- 3783

    Perinat Outrach             Prgr
    Lida Mauro
                 n 's   Home Health Ca   Sers
    111 Mihigan Avenue,
    Washigtn, DC 20010

     (202) 939-4917



                                            n & -, "'-

                                       - --             - -




V. PROFESSIONAL TRAINING                                  ;f .

    National Association for
    Perinata Addiction Research and Education
    Judy Burison
    11 East   Hubbar Street
    Suite 200
    Chicago, IT 60611
    (312) 329- 2512

    Prject T.

    Judy Howar, M.
    UCLA Deparent of Pediatrcs
    Intervention Prgram
    1000 Vetera Avenue
    23- 10 Rehabiltation Center
    Los Angeles, CA 9024- 0797
    (213) 825-4821

VI. MANAGEMENT PRACTICES

    Florida Abuse Registr
    Judy Rosenbaum
    Senior Management Analyst
    Health and Rehabiltative Servces
    401 NW 2nd Avenue
    10t Floor, South Wmg
    Miam, FL 33128
    (305) 377-5301

    Los Angeles Drg Baby      UnitS
    Gerhar Moland

    Chidrn s Servces AdmsU'ator
    Deparnt of Chidrn s Servces
    Exposition Pa Ofce
    3965  Vent   Avenue
    Los Angeles, CA 9037
    (213) 730342

    Florida Past Trakig
    Charles Edlstein
    Consultat to the Chef Judge
    Juvenie Justice Center
    330 N.W. 27th Avenue
     Miam, FL 33142

     (305) 638-6185


                                              A- A._-                     ..F
                                                              .. i". . - .

    :\.




VII. INTERAGENCY COORplNATION

           Ilinois \1odel
      nionJ. Association for
          rinJrJ. Addiction Research and Education
    J llJ Y B urison
    11 Elsr Hubbard Street
    Suire 200
    Chicago, II 60611

    (12) 329- 2512


    Governor s Commssion for a Drg Free Indiana
    Joseph Mils
     150 West Market Stret

     Suite 703
     Indianapolis, IN 46204
     (317) 232- 1142

VIII. PRIVATE INITIATIVES

    Women s Annex
    Jacquelyn Nonnan
     2024 South J Stret

     Tacoma, WA 98405
     (206) 383- 0104

     Children s Home Society
     Mar Louise Cole, Ph.
     Executive Director
     800 NW 15th Street
     Nfan, FL 33136- 1495
     (305) 324- 1262


     California Medcal Center
     Nfnda Ofiano

     1401 South Grad Avenue
     Los Angeles, CA 90      15
     (213) 748- 2411
